TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Although Improvements Have Been Made,
                 More Can Be Done to Identify Businesses by
                      Their Principal Business Activity



                                             July 2006

                              Reference Number: 2006-30-097




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   July 5, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Although Improvements Have Been Made, More
                               Can Be Done to Identify Businesses by Their Principal Business
                               Activity (Audit # 200430023)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) efforts to
 identify businesses by their principal business activity. The overall objective of this review was
 to evaluate the effectiveness of the corrective actions taken in response to the recommendations
 in a prior Treasury Inspector General for Tax Administration report.1

 Synopsis
 In the previous report, we recommended management identify business taxpayers by their
 principal business activity from information provided when taxpayers file Applications for
 Employer Identification Number2 (Form SS-4). Early identification by Principal Business
 Activity (PBA) code would allow the Internal Revenue Service (IRS) to include these new
 businesses in market segment analyses to identify the need for educational or compliance
 assistance.
 During this review, we found that the IRS has taken steps to capture the PBA codes during the
 processing of Forms SS-4; however, many PBA codes are still not identified during Forms SS-4
 processing. Using information supplied by the IRS, the Social Security Administration now
 assigns appropriate PBA codes to the businesses and sends the PBA code information to the IRS.



 1
   Additional Controls Are Necessary to Ensure that All Businesses are Classified by Their Principal Business
 Activity (Reference Number 2001-30-117, dated August 2001).
 2
   The Employer Identification Number is a unique nine-digit number used to identify a taxpayer’s business account.
                  Although Improvements Have Been Made, More Can Be Done to
                      Identify Businesses by Their Principal Business Activity



However, limited audit testing determined only 38 percent of PBA codes were recorded on IRS
records following the processing of Forms SS-4.3
Also, in the previous report, we recommended management implement processing controls to
identify and correct business income tax returns with invalid PBA codes and individual income
tax returns reporting business activities with invalid or missing PBA codes. Although the IRS
could not take the recommended corrective actions due to the cost, the procedures for business
income tax returns were improved, which should help to correct invalid PBA codes and add
missing codes.
However, there are still insufficient procedures for handling both missing and invalid PBA codes
on individual income tax returns reporting business activity. In a test of 562,807 individual
income tax returns with an attached Profit or Loss From Business (Schedule C), we found
111,790 (20 percent) were processed without PBA codes.
If missing and invalid PBA codes are not added or corrected, the IRS may be unable to
accurately profile taxpayers by their market segment for education through outreach programs,
identification of nonfilers, and use in statistical reports and analyses.

Recommendations
The Director, Customer Account Services, Wage and Investment Division, should 1) coordinate
with the Social Security Administration to determine the causes for missing PBA codes on
Forms SS-4 and consider developing controls and issuing instructions to address the causes
identified, to ensure PBA codes are assigned when required, and 2) develop procedural
instructions to identify and correct individual income tax returns reporting business activities that
have missing or invalid PBA codes.

Response
IRS management agreed with the first recommendation and determined that some North
American Industry Classification System (NAICS)4 codes were not transmitted between the
agencies. They identified the cause of the problem, and Social Security Administration and IRS



3
  We sampled 315 Form SS-4 applications that were selected at the Brookhaven, New York, IRS Campus for 1 week
in August 2004. Ninety-seven of the 315 Forms SS-4 did not require a PBA code; the remaining 218 did require a
code. Of the 218 Forms SS-4 requiring PBA codes, only 38 percent (82 of 218) had PBA codes entered on IRS
records. The campuses are the data processing arm of the IRS. They process paper and electronic submissions,
correct errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
4
  According to the IRS’ response to our draft report (see Appendix V), the PBA codes are now known as NAICS
codes, and the IRS response uses that abbreviation in place of “PBA.”
                                                                                                            2
                 Although Improvements Have Been Made, More Can Be Done to
                     Identify Businesses by Their Principal Business Activity



programmers are working to correct the situation. The IRS will continue to work with the Social
Security Administration to resolve this issue and develop appropriate validation controls.
However, the IRS disagreed with our second recommendation. Further, they stated that they
disagreed with one of the basic premises of our report, that early identification by NAICS codes
would allow the IRS to include new businesses in market segment analyses to identify the need
for educational or compliance assistance, stating that, “while we acknowledge there is the
potential to use this information as you describe, we do not currently use the NAICS codes for
this purpose since we do not communicate directly to the small business taxpayer; instead, we
find it more effective for us to provide education through leveraged liaison and outreach
activities with practitioner organizations and small business and industry associations.” IRS
management considered our recommendation but determined that implementation would require
additional return processing steps, which would increase the costs and extend the time required
to process applicable individual income tax returns reporting business activities. This, combined
with the fact that the IRS does not use the NAICS codes to identify and contact small business
taxpayers regarding their possible needs, led to the conclusion that it is not in the interest of tax
administration to implement the recommendation. Management’s complete response to the draft
report is included as Appendix V.

Office of Audit Comment
We are not advocating that the IRS communicate directly with the small business taxpayer, and
we do not disagree with the IRS’ use of outreach activities. However, we believe these outreach
activities can be more useful if focused on taxpayer segments with specific, identified needs. For
example, we are now completing a review that identified a significant number of commercial
fishermen who could have paid less tax by taking advantage of a relatively new provision
allowing them to average their income from fishing; however, these taxpayers apparently were
unaware of this provision. We identified these taxpayers by NAICS code. Therefore, we believe
the IRS should reconsider taking some steps to improve the accuracy of the NAICS codes.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-8500.




                                                                                                    3
                      Although Improvements Have Been Made, More Can Be Done to
                          Identify Businesses by Their Principal Business Activity




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          More Can Be Done to Identify Businesses by Their Principal Business
          Activity When Business Accounts Are Established .....................................Page 2
                    Recommendation 1:..........................................................Page 4

          Procedures Were Developed to Correct Invalid Principal Business
          Activity Codes and Add Missing Codes for Business Income Tax
          Returns but Not for Individual Income Tax Returns ...................................Page 4
                    Recommendation 2:..........................................................Page 5


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 9
          Appendix III – Report Distribution List .......................................................Page 10
          Appendix IV – Outcome Measure ................................................................Page 11
          Appendix V – Management’s Response to the Draft Report .......................Page 12
                   Although Improvements Have Been Made, More Can Be Done to
                       Identify Businesses by Their Principal Business Activity




                                             Background

Principal Business Activity (PBA) codes are used to classify businesses by type of activity.
These codes were originally based on the Standard Industrial Classification index and were used
exclusively through 1998 by the Internal Revenue Service (IRS). As of 1999, the four-digit
Standard Industrial Classification-based number was changed to a six-digit number based on the
North American Industry Classification System (NAICS), which was developed through a
cooperative effort among the Governments of the United States, Canada, and Mexico. This
System was designed with more than 1,000 codes, approximately 400 of which the IRS has
adopted for its use.
In a prior report,1 we found the IRS successfully adopted the new NAICS codes; however, the
IRS had not taken advantage of the opportunity to immediately identify taxpayers’ PBA codes
when the taxpayers were first established on the IRS Business Master File (BMF).2 Also,
processing controls were not sufficient to ensure valid PBA codes were identified for all
business-related tax returns filed on both the BMF and the Individual Master File.3
This review was performed at the IRS Brookhaven, New York, Campus4 during the period
March 2005 through March 2006. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




1
  Additional Controls Are Necessary to Ensure that All Businesses Are Classified by Their Principal Business
Activity (Reference Number 2001-30-117, dated August 2001).
2
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
3
  The IRS database that maintains transactions or records of individual tax accounts.
4
  The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                            Page 1
                   Although Improvements Have Been Made, More Can Be Done to
                       Identify Businesses by Their Principal Business Activity




                                      Results of Review

More Can Be Done to Identify Businesses by Their Principal Business
Activity When Business Accounts Are Established
We previously reported:
        The IRS cannot identify taxpayers by industry or market segment until the taxpayers
        provide valid PBA codes with the filing of a U.S. Individual Income Tax Return
        (Form 1040) containing a Schedule C or F,5 a U.S. Return of Partnership Income
        (Form 1065), or one of the various U.S. Corporation Income Tax Returns (Form 1120
        series). Therefore, newly established businesses cannot be placed in industries or market
        segments based on their PBA codes, nor can they be targeted for prefiling outreach or
        compliance activities until they file tax returns with valid PBA codes. With
        approximately 2 million Employer Identification Numbers (EIN)6 issued annually, this
        problem affects a great many newly established businesses.
        Although the PBA information was available, the IRS had not yet taken the opportunity
        to use it. When taxpayers file an Application for Employer Identification Number
        (Form SS-4), their accounts are established on the IRS Master File.7 Although the
        principal business activity is described on the Form SS-4, taxpayers are not required to
        enter PBA codes, nor does the IRS use the taxpayer’s description of the business to
        identify the code for entry to the Master File at that time.
We recommended management identify business taxpayers by their principal business activity
from information provided when taxpayers file Forms SS-4 requesting an EIN and their entities
are established on the BMF. Early identification by PBA code would allow the IRS to include
these new businesses in market segment analyses to identify the need for educational or
compliance assistance.
In their response to the previous report, IRS management agreed that efforts could be made to
identify the PBA codes at the time of processing Forms SS-4. Management also stated they
would need additional resources to perform the validity and correction process. The IRS planned
to perform a cost/benefit analysis to make certain the benefits would justify the cost to perform
this work and, ultimately, whether such funding was available.

5
  The Schedules are Profit or Loss From Business (Schedule C) and Profit or Loss From Farming (Schedule F).
6
  A unique nine-digit number used to identify a taxpayer’s business account.
7
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                            Page 2
                  Although Improvements Have Been Made, More Can Be Done to
                      Identify Businesses by Their Principal Business Activity



Changes made since our prior audit include:
    •   Revisions to Form SS-4 - During the previous audit, Form SS-4, revised in April 2000,
        instructed taxpayers to enter, “the exact type of business being operated (for example,
        advertising agency, farm, food or beverage establishment, labor union, real estate agency,
        steam laundry, rental of coin-operated vending machine, or investment club).” The
        current Form SS-4, revised in December 2001, asks taxpayers to check 1 of 12 boxes
        which best describes the principal activity of the applicant’s business. Although the
        boxes that business taxpayers are asked to check are limited to only 12 categories, the
        instructions continue to ask the applicants to describe their principal line of business in
        more detail.
    •   Adoption of New Procedures for Assigning PBA codes - The IRS now transcribes and
        electronically transmits the information from Forms SS-4 to the Social Security
        Administration, which then assigns an appropriate PBA code to the business and sends
        the PBA code information to the IRS within approximately 2 months. The six-digit
        codes are then added to the Master File records for the business entities.

More needs to be done to ensure PBA codes are assigned
In a judgmental sample of Forms SS-4 that consisted of Internet, fax, and mail-in applications
submitted to the IRS during 1 week in August 2004, only 38 percent of PBA codes were
recorded on the BMF after the processing of Forms SS-4 and before the filing of tax returns by
businesses that applied for EINs.8
Although the 38 percent represents a significant improvement from our previous audit, many
businesses are still not assigned PBA codes during Form SS-4 processing. Instead, PBA codes
are not assigned until the businesses file their first tax returns.
The IRS studied alternative methodologies for assigning PBA codes during Form SS-4
processing and decided not to adopt our recommendations, primarily due to cost factors. While
actions have been taken to include taxpayers as stakeholders in providing information on the
Form SS-4 concerning their principal business activity and the Social Security Administration as
a stakeholder in assigning PBA codes, sufficient controls and procedures have not been
established to ensure PBA codes are assigned to taxpayers.
Consequently, the IRS will not receive the full benefit of more accurate and complete profiling
of taxpayers by their market segment for education of taxpayers through outreach programs,
identification of nonfilers, and use in statistical reports.


8
  We sampled 315 Form SS-4 applications that were selected at the IRS Brookhaven Campus. Ninety-seven of the
315 Forms SS-4 did not require a PBA code; the remaining 218 did require a code. Of the 218 Forms SS-4
requiring PBA codes, only 38 percent (82 of 218) had PBA codes recorded on the BMF.
                                                                                                      Page 3
                  Although Improvements Have Been Made, More Can Be Done to
                      Identify Businesses by Their Principal Business Activity



Recommendation
Recommendation 1: The Director, Customer Account Services, Wage and Investment
Division, should coordinate with the Social Security Administration to determine the causes for
missing PBA codes on Forms SS-4 and consider developing controls and issuing instructions to
address the causes identified, to ensure PBA codes are assigned.
        Management’s Response: IRS management agreed with this recommendation and
        determined that some NAICS9 codes were not transmitted between agencies. They
        identified the cause of the problem, and Social Security Administration and IRS
        programmers are working to correct the situation. The IRS will continue to work with
        the Social Security Administration to resolve this issue and develop appropriate
        validation controls.

Procedures Were Developed to Correct Invalid Principal Business
Activity Codes and Add Missing Codes for Business Income Tax
Returns but Not for Individual Income Tax Returns
In our prior report, we recommended management implement processing controls to identify
business income tax returns with invalid PBA codes and individual income tax returns with
invalid or missing PBA codes, for research and correction during processing.
In response to that report, management stated they would need additional resources to perform
the validity and correction process. A cost/benefit analysis would be performed to make certain
the benefits would justify the cost to perform this work and, ultimately, whether such funding
was available. In its analysis, the IRS would consider any impact that might delay the processing
of returns, thus adversely affecting customer service.

PBA code processing - business income tax returns
Although the IRS could not take the recommended corrective actions due to the cost, procedures
were improved to correct invalid PBA codes and add missing codes for business tax returns.
Procedures regarding PBA codes were added to the Internal Revenue Manual covering the
processing of business returns. When codes are missing or invalid, tax examiners are now
instructed to use the information on the returns and the list of PBA codes to determine what the
code should be. If they are unable to make a determination, a generic code is used.




9
 According to the IRS’ response to our draft report (see Appendix V), the PBA codes are now known as NAICS
codes, and the IRS response uses that abbreviation in place of “PBA.”
                                                                                                      Page 4
                Although Improvements Have Been Made, More Can Be Done to
                    Identify Businesses by Their Principal Business Activity



PBA code processing - individual income tax returns
In the prior audit, we reported the IRS did not have sufficient controls for handling both missing
and invalid PBA codes on individual income tax returns and there were no Internal Revenue
Manual instructions to identify and correct the PBA codes. Specifically, we reported that:
       Approximately 2 million individual income tax returns containing Schedules C or F were
       processed with missing codes. This represented 9.6 percent of all tax returns filed with
       these Schedules. Just over 780,000 individual income tax returns with Schedules C or F
       were processed with invalid codes. This represented 3.7 percent of all tax returns filed
       with these Schedules.
Although Internal Revenue Manual instructions were developed to address and correct invalid
PBA codes on business income tax returns, management has not addressed missing and invalid
PBA codes on individual income tax returns reporting business activities. The procedural
changes adopted for processing business returns should also be adopted for processing individual
income tax returns. This should help ensure missing PBA codes are added and invalid codes are
corrected on individual income tax returns reporting business activity.
Filing instructions for tax returns with attached an Schedule C and/or Schedule F require PBA
codes. Our audit test showed that approximately 20 percent of individual income tax returns
with an attached Schedule C did not have PBA codes. Using a computer application, we
identified 562,807 returns filed with a Schedule C for Tax Year 2003 and found 111,790 were
processed without PBA codes.
If these missing and invalid PBA codes are not added or corrected, the IRS may be unable to
accurately profile taxpayers by their market segment for education through outreach programs
and use in statistical reports and analyses.

Recommendation
Recommendation 2: The Director, Customer Account Services, Wage and Investment
Division, should develop procedural instructions to identify and correct individual income tax
returns reporting business activities that have missing or invalid PBA codes.
       Management’s Response: IRS management disagreed with this recommendation.
       Further, they stated that they disagreed with one of the basic premises of our report, that
       early identification by NAICS codes would allow the IRS to include new businesses in
       market segment analyses to identify the need for educational or compliance assistance,
       stating that, “while we acknowledge there is the potential to use this information as you
       describe, we do not currently use the NAICS codes for this purpose since we do not
       communicate directly to the small business taxpayer; instead, we find it more effective
       for us to provide education through leveraged liaison and outreach activities with
       practitioner organizations and small business and industry associations.” IRS

                                                                                            Page 5
        Although Improvements Have Been Made, More Can Be Done to
            Identify Businesses by Their Principal Business Activity



management stated they considered our recommendation but determined implementing it
would require additional return processing steps, which would increase the costs and
extend the time required to process applicable individual income tax returns reporting
business activities. This, combined with the fact that the IRS does not use the NAICS
codes to identify and contact small business taxpayers regarding their possible needs, led
to the conclusion that it is not in the interest of tax administration to implement the
recommendation.
Office of Audit Comment: We are not advocating that the IRS communicate directly
with the small business taxpayer, and we do not disagree with the IRS’ use of outreach
activities. However, we believe these outreach activities can be more useful if focused on
taxpayer segments with specific, identified needs. For example, we are now completing a
review that identified a significant number of commercial fishermen who could have paid
less tax by taking advantage of a relatively new provision allowing them to average their
income from fishing; however, these taxpayers apparently were unaware of this
provision. We identified these taxpayers by NAICS code. Therefore, we believe the IRS
should reconsider taking some steps to improve the accuracy of the NAICS codes.




                                                                                   Page 6
                  Although Improvements Have Been Made, More Can Be Done to
                      Identify Businesses by Their Principal Business Activity



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the effectiveness of the corrective actions
taken in response to the recommendations in a prior Treasury Inspector General for Tax
Administration (TIGTA) report.1 To accomplish this objective, we:
I.      Determined whether corrective measures were taken by the Internal Revenue Service
        (IRS). We reviewed management’s response to the original report to identify which
        findings required corrective actions and how the corrective actions were to be
        implemented. We also determined what corrective actions had been implemented.
II.     Evaluated the adequacy and effectiveness of corrective actions taken.
        A. Determined whether processing instructions involving the Application for Employer
           Identification Number (Form SS-4) were adequate and/or updated to ensure Principal
           Business Activity (PBA) codes were established when business entities were created
           by Form SS-4 filings. We reviewed a judgmental sample2 of 315 Forms SS-4
           processed at the IRS Brookhaven, New York, Campus3 and researched IRS records to
           determine whether PBA codes were assigned to the businesses. For 1 week in
           August 2004, 198 Employer Identification Number (EIN)4 applications selected were
           initiated through the Internet, 103 EIN applications selected were Forms SS-4 faxed
           to the Brookhaven Campus, 6 EIN applications selected were submitted with
           correspondence, and 8 EIN applications selected were received in the mail. We also
           evaluated the cost/benefit analysis performed regarding establishing PBA codes at the
           time of Form SS-4 filing.
        B. Determined whether processing instructions for resolving missing or invalid PBA
           codes on business and individual income tax returns were adequate and/or updated.
           Using a computer application, we extracted from the TIGTA Data Center
           Warehouse,5 as of July 20, 2005, 562,807 Tax Year 2003 individual income tax


1
  Additional Controls Are Necessary to Ensure that All Businesses are Classified by Their Principal Business
Activity (Reference Number 2001-30-117, dated August 2001).
2
  A judgmental sample was selected because the Forms SS-4 are available for a limited time only. The IRS
processed approximately 3.5 million Forms SS-4 during 2004, but the Forms are generally available only when they
were being processed.
3
  The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
4
  A unique nine-digit number used to identify a taxpayer’s business account.
5
  The Warehouse is a centralized data storage facility that TIGTA auditors use to obtain IRS data.
                                                                                                        Page 7
               Although Improvements Have Been Made, More Can Be Done to
                   Identify Businesses by Their Principal Business Activity



          returns, with an attached Profit or Loss From Business (Schedule C). We analyzed
          the file and determined the number and percentage of returns processed without PBA
          codes.
III.   Determined, where substantive corrective actions had not been taken, if there were
       corrective actions that could be taken to improve the processing of PBA codes. We also
       interviewed program analysts to determine whether there were less costly corrective
       actions that could be taken.




                                                                                        Page 8
               Although Improvements Have Been Made, More Can Be Done to
                   Identify Businesses by Their Principal Business Activity



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
Robert K. Irish, Audit Manager
Paul R. Baker, Lead Auditor
Stephen A. Wybaillie, Auditor




                                                                                        Page 9
              Although Improvements Have Been Made, More Can Be Done to
                  Identify Businesses by Their Principal Business Activity



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 10
                Although Improvements Have Been Made, More Can Be Done to
                    Identify Businesses by Their Principal Business Activity



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; 111,790 taxpayer accounts affected (see page 4).

Methodology Used to Measure the Reported Benefit:
Our audit test showed that approximately 20 percent of individual income tax returns with an
attached Profit or Loss From Business (Schedule C) did not have Principal Business Activity
codes. Using a computer application, we identified 562,807 returns filed with a
Schedule C for Tax Year 2003 and found 111,790 were processed without Principal Business
Activity codes.




                                                                                            Page 11
   Although Improvements Have Been Made, More Can Be Done to
       Identify Businesses by Their Principal Business Activity



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 12
Although Improvements Have Been Made, More Can Be Done to
    Identify Businesses by Their Principal Business Activity




                                                       Page 13
Although Improvements Have Been Made, More Can Be Done to
    Identify Businesses by Their Principal Business Activity




                                                       Page 14
Although Improvements Have Been Made, More Can Be Done to
    Identify Businesses by Their Principal Business Activity




                                                       Page 15
Although Improvements Have Been Made, More Can Be Done to
    Identify Businesses by Their Principal Business Activity




                                                       Page 16
